                     The Internal Revenue Service’s
                Implementation of the Improper Payments
                     Information Act Is Progressing

                                     April 2005

                       Reference Number: 2005-40-062




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    April 15, 2005


      MEMORANDUM FOR CHIEF FINANCIAL OFFICER



      FROM:                       Pamela J. Gardiner
                                  Deputy Inspector General for Audit

      SUBJECT:                    Final Audit Report - The Internal Revenue Service’s
                                  Implementation of the Improper Payments Information Act
                                  Is Progressing (Audit # 200440042)


      This report presents the results of our review to evaluate the process the Internal
      Revenue Service (IRS) established to complete the Department of the Treasury’s (the
      Treasury) implementation plan to comply with the Improper Payments Information Act of
      2002 (IPIA).1
      The IPIA requires agencies to report annually on the extent of improper payments, and
      the actions being taken to reduce them, for all potentially high-risk programs and
      activities meeting specific criteria. According to the Government Accountability Office
      (GAO), improper payments have been recognized as a longstanding, widespread, and
      significant problem in the Federal Government. The Office of Management and Budget
      (OMB) estimated these payments to be about $35 billion annually for major Federal
      Government benefit programs.2
      In May 2003 and September 2004, the OMB issued its implementing and alternative
      guidelines for the development of a formal implementation plan for the IPIA, the
      performance of risk assessments and annual statistical assessments for high-risk
      programs, and reporting requirements.3 Under the OMB guidelines and the Treasury
      IPIA implementation plan, the various Treasury agencies, including the IRS, were


      1
        Pub. L. No. 107-300, 116 Stat. 2350 (2002).
      2
        Financial Management: Status of the Governmentwide Efforts to Address Improper Payment Problems
      (GAO-04-99, dated October 2003).
      3
        OMB memorandum entitled, Improper Payments Information Act of 2002 (Public Law No: 107-300)
      (M-03-13, dated May 2003) and Alternative for Estimating Improper Payment Amounts, Chief Financial Officer
      Council Working Group on Improper Payments.
                                           2

required to conduct annual risk assessments of programs not already identified as
high risk that had program funding greater than or equal to $10 million. Treasury
agencies were to report the results of those assessments to the President and the
Congress. The only program the IRS deemed to be at high risk for improper payments
was the Earned Income Tax Credit Program, which was previously recognized as a
high-risk program and reported under OMB Preparation, Submission, and Execution of
the Budget (Circular A-11) requirements.
The IRS performed risk assessments for 13 of the 14 programs identified by the
Treasury as requiring a risk assessment under OMB guidelines. The one program for
which the IRS did not assess risk was the Unapplied Collections Program. The
Associate Chief Financial Officer (CFO) for Revenue Financial Management, with verbal
concurrence from Treasury personnel, believed the Unapplied Collections Program was
not covered under the IPIA because funding for the Program was not derived from
Federal Government funds. The Treasury’s annual Performance and Accountability
Report must be in compliance with OMB guidelines. As such, we believe that, if the IRS
wanted to exclude a specific program, such as the Unapplied Collections Program, from
coverage under the IPIA, it should have sought formal concurrence from the Treasury.
In any event, the amount of disbursements in the Unapplied Collections Program makes
it unlikely the Unapplied Collections Program would be a high-risk program.
When performing two of the required risk assessments, the IRS did not use program
assistance when evaluating the internal controls in the programs. While the Treasury
IPIA guidelines did not provide specific direction on who should perform annual risk
assessments, it would have been prudent on the part of the Associate CFO for Revenue
Financial Management to solicit the opinions of those having firsthand program
knowledge. If the risk assessments had been performed with assistance from program
area employees, the risk assessments may have identified additional risks.
We recommended the CFO work with the Treasury to obtain formal exemptions from
the Treasury for IRS programs meeting the IPIA risk assessment criteria for which the
CFO has determined that a risk assessment will not be performed. In addition, the CFO
should include IRS operating function employees on the assessment teams when
conducting future annual risk assessments.
Management’s Response: Management partially agreed to both recommendations.
They believe they took the appropriate steps to notify the Treasury CFO’s office that
they would not be performing the Unapplied Collections Program risk assessment and
concurred with formal notification to the Treasury only in the event they have to remove
any future risk assessments from the Treasury list.
In addition, while management did not agree to assign functional employees to the risk
assessment teams, they pointed out they involved the functional employees in the risk
assessments and obtained agreement from functional staff to assist during the Fiscal
Year 2005 risk assessments. Management’s complete response to the draft report is
included as Appendix V.
                                             3

Office of Audit Comment: Although IRS management agreed to obtain formal
exemptions in the future when risk assessments listed in the Treasury IPIA
implementation plan are not conducted, they disagreed that they should have obtained
a formal exception this year for not conducting the risk assessment for the Unapplied
Collection Program. Formally notifying the Treasury would have ensured the Treasury’s
information provided to the Congress would have included the affected IRS revenue
programs and activities. Not doing so could expose the IRS to criticism and cause
unnecessary concern over its IPIA implementation methods.
In addition, the Associate CFO for Revenue Financial Management agreed to have IRS
functional staff assist on some future risk assessments by obtaining and analyzing data
but did not agree to have IRS functional staff assigned to the assessment teams. We
believe assigning IRS functional staff to future risk assessments may enhance the
identification of risks. This would allow the risk assessment teams to solicit the opinions
of those having firsthand program knowledge. Officials we contacted from other
agencies believed program area involvement was critical to identifying potential
problems and weaknesses that may cause improper payments and could make a
program high risk.
While we still believe our recommendations are worthwhile in full, we do not intend to
elevate our disagreement concerning these matters to the Department of the Treasury
for resolution.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
                        The Internal Revenue Service’s Implementation of the
                         Improper Payments Information Act Is Progressing




                                                Table of Contents


Background ............................................................................................... Page 1
The Risk Assessments Were Timely Completed, but the Process
Could Be Improved.................................................................................... Page 5
         Recommendations 1 and 2: .............................................................Page 9

The Earned Income Tax Credit Program Is Attempting to Comply
With the Office of Management and Budget’s Guidelines for
Estimating Improper Payment Amounts .................................................... Page 10
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 12
Appendix II – Major Contributors to This Report ....................................... Page 14
Appendix III – Report Distribution List ....................................................... Page 15
Appendix IV – Internal Revenue Service Inventory of Programs
Meeting Office of Management and Budget Criteria ................................. Page 16
Appendix V – Management’s Response to the Draft Report ..................... Page 17
             The Internal Revenue Service’s Implementation of the
              Improper Payments Information Act Is Progressing

                             One component of the Fiscal Year (FY) 2002 President’s
Background
                             Management Agenda (PMA)1 was the initiative for agencies
                             to reduce the amount of improper payments. An improper
                             payment is any payment that should not have been made or
                             that was made in an incorrect amount under a statutory,
                             contractual, administrative, or other legally applicable
                             requirement.
                             Agency programs listed in the Office of Management and
                             Budget’s (OMB) guidance entitled, Preparation,
                             Submission, and Execution of the Budget (Circular A-11),
                             were required to report annually on the extent of improper
                             payments and the actions being taken to reduce the improper
                             payments. Circular A-11 required the Internal Revenue
                             Service (IRS) to estimate and report the amount of improper
                             payments resulting from the Earned Income Tax Credit
                             (EITC) Program, long recognized as having significant
                             payment issues.
                             According to the Government Accountability Office (GAO),
                             improper payments have been recognized as a longstanding,
                             widespread, and significant problem in the Federal
                             Government. The OMB estimated these payments to be
                             about $35 billion annually for major Federal Government
                             benefit programs.2 The Improper Payments Information Act
                             of 2002 (IPIA)3 was enacted to address these concerns.
                             The Chairman of the Senate Committee on Finance4
                             expressed concerns over improper payments, stating,
                             “Because of the magnitude and implications of improper
                             payments Government-wide . . . it is critical that agencies
                             [including the IRS] take their responsibilities under the
                             [Improper Payments Information] Act seriously.” The
                             Chairman also stated that agency reports are expected to be
                             accurate, with complete disclosure of improper payment
                             amounts, and that the Senate Committee on Finance should
                             “consider the reports required by the [Improper Payments

                             1
                               The PMA is a strategy for improving the management of the Federal
                             Government and focuses on 14 areas for improvement.
                             2
                               Financial Management: Status of the Governmentwide Efforts to
                             Address Improper Payment Problems (GAO-04-99, dated
                             October 2003).
                             3
                               Pub. L. No. 107-300, 116 Stat. 2350 (2002).
                             4
                               Senator Charles Grassley (R-Iowa).
                                                                                           Page 1
The Internal Revenue Service’s Implementation of the
 Improper Payments Information Act Is Progressing

                Information] Act to provide critical information that will
                assist in the Committee’s oversight and monitoring of
                Federal [Government] programs and activities, as well as
                the Congress’ evaluation of agency management and control
                over Federal [Government] funds.”5
                The IPIA extended the PMA reporting requirement for
                improper payments to include other potentially high-risk
                programs and activities meeting specific criteria. As a
                result, all Federal Government agencies, including the IRS,
                must now evaluate the potential for improper payments in
                all high-risk program areas on an annual basis.
                                  Figure 1: High-Risk Determination

                             No




                Source: OMB guidelines.6

                For those program areas determined to be at high risk, the
                agencies must estimate the amount of the existing improper
                payments and develop plans to improve controls in the

                5
                  Letter from Senator Charles Grassley to the
                Honorable Joshua B. Bolten, Director, OMB, dated January 9, 2004.
                6
                  OMB memorandum entitled, Improper Payments Information Act of
                2002 (Public Law No: 107-300) (M-03-13, dated May 2003) and
                Alternative for Estimating Improper Payment Amounts, Chief Financial
                Officer Council Working Group on Improper Payments.
                                                                             Page 2
The Internal Revenue Service’s Implementation of the
 Improper Payments Information Act Is Progressing

                high-risk program areas to improve payment accuracy.
                Under the IPIA, the OMB was charged with the
                responsibility of developing the implementation guidelines
                for all Federal Government agencies.
                In May 2003, the OMB issued its implementing guidelines
                requiring all Departments, including the Department of the
                Treasury (the Treasury), to develop a formal
                implementation plan for the IPIA. The Treasury developed
                its plan using OMB guidance, internal control standards
                contained in the Treasury Management Control Program,
                and GAO recommendations contained in several reports that
                addressed improper payments. Under the Treasury’s IPIA
                implementation plan, the various Treasury agencies,
                including the IRS, were required to conduct annual risk
                assessments of programs not already identified as high risk
                under OMB Circular A-11 and having program funding
                greater than or equal to $10 million.
                For any program determined to be at high risk of improper
                payments, the agencies, including the IRS, were then
                required to determine if the improper payment amounts
                could be greater than or equal to $10 million. For programs
                meeting these criteria, the agencies were to statistically
                sample the programs’ disbursements to obtain a valid
                estimate of the total dollar value (absolute value) of
                improper payments. This analysis would serve as the
                benchmark for future improper payment assessments. If the
                improper payments for a program were statistically
                estimated to equal or exceed $10 million and 2.5 percent of
                total payments, the IRS was to develop and implement a
                corrective action plan to improve payment accuracy. The
                action plan and progress in meeting the action plan goals
                would be reported to the Congress in each year’s
                Performance and Accountability Report (PAR) due near the
                end of each calendar year.7
                During the course of implementation, some Federal
                Government agencies expressed concerns over the resources
                needed to conduct annual statistical assessments in complex
                programs. According to the Congressional Record, one


                7
                 The most recent Department of the Treasury PAR was issued in
                November 2004.
                                                                            Page 3
The Internal Revenue Service’s Implementation of the
 Improper Payments Information Act Is Progressing

                Congresswoman stated, “The GAO proposed [to the
                Congress] that agencies could avoid reporting on improper
                payments if the agency concluded that the cost of estimating
                the level of improper payments was not ‘cost beneficial’
                . . . I was concerned that the provision simply created
                another loophole for agencies to avoid addressing this
                problem, and I am pleased that the Senate chose not to
                include this provision.”8
                The OMB subsequently issued revised guidelines on
                statistically sampling certain high-risk programs in
                September 2004.9 Under the new guidelines, once approved
                by the OMB, agencies could choose an alternative to the
                annual studies, but statistical assessments would still be
                required. The guidance allowed for agencies to perform
                trend analyses using previously available baselines, if less
                than 5 years old, to estimate the existing improper payment
                rates. However, each baseline rate must be updated at least
                every 5 years through statistical analysis. In addition,
                agencies should annually perform a statistically valid
                sample on a component of the program that may be
                susceptible to significant improper payments.
                The IRS Chief Financial Officer (CFO) and the Director,
                EITC, had the responsibility for ensuring compliance with
                the IPIA and implementing the Treasury IPIA guidelines.
                This included performing risk assessments on the programs
                meeting the IPIA criteria. The Associate CFO for Revenue
                Financial Management (revenue programs) and the
                Associate CFO for Internal Financial Management
                (administrative programs) performed risk assessments in
                their respective areas. The Director, EITC, took
                responsibility for the EITC Program.
                This review was performed in the Office of the CFO at the
                IRS National Headquarters in Washington, D.C.; the
                Beckley Finance Center in Beckley, West Virginia; and the
                EITC Program office in Atlanta, Georgia, during the period
                February through December 2004. The audit was conducted

                8
                  Congresswoman Jan Schakowsky (D-Illinois) during Congressional
                Testimony to the United States House of Representatives on
                November 12, 2002.
                9
                  Alternative for Estimating Improper Payment Amounts, Chief
                Financial Officer Council Working Group on Improper Payments.
                                                                           Page 4
                 The Internal Revenue Service’s Implementation of the
                  Improper Payments Information Act Is Progressing

                                 in accordance with Government Auditing Standards.
                                 Detailed information on our audit objective, scope, and
                                 methodology is presented in Appendix I. Major
                                 contributors to the report are listed in Appendix II.
                                 The IRS established a process to complete the Treasury
The Risk Assessments Were
                                 implementation plan to comply with the IPIA. The
Timely Completed, but the
                                 Treasury identified the programs that required a risk
Process Could Be Improved
                                 assessment based on total funding greater than or equal to
                                 $10 million. The purpose of the risk assessment was to
                                 identify programs which may be susceptible to significant
                                 erroneous payments. The Treasury guidelines supplemented
                                 OMB guidelines by requiring the IRS to document the risk
                                 assessments performed for the programs subject to the IPIA.
                                 The Associate CFO for Revenue Financial Management and
                                 the Associate CFO for Internal Financial Management
                                 timely evaluated the risk of improper payments for 13 of the
                                 14 required programs.10 They documented the process by
                                 using the Treasury risk assessment questionnaire, which
                                 asked 54 questions designed to assess the risk of improper
                                 payments.
                                 Performing risk assessments ensures the Treasury can
                                 identify high-risk programs and, with subsequent statistical
                                 analysis, provide both the Congress and taxpayers with an
                                 accurate accounting of improper payment rates. The
                                 13 programs evaluated accounted for approximately
                                 $646 billion in total funding and $252 billion in total
                                 payments (see Appendix IV).
                                 According to the Chairman of the Senate Committee on
                                 Finance, information on the extent of improper payments
                                 “. . . is critical to the Congress’ understanding of existing
                                 problems and its ability to legislate to reduce improper
                                 payment levels. Only with careful analysis of this
                                 information can [the Congress] ensure the most effective,


                                 10
                                    The Treasury identified a total of 16 programs, including 2 EITC
                                 programs, accounting for $680 billion in total funding and $283 billion
                                 in total payments. The 2 programs, Headquarters Disbursements Earned
                                 Income Credit and EITC Compliance, have funding over $10 million
                                 but did not require a risk assessment because the EITC Program was
                                 already deemed to be high risk under OMB Circular A-11 and was
                                 previously recognized as high risk in the Treasury’s annual PAR.
                                                                                                Page 5
The Internal Revenue Service’s Implementation of the
 Improper Payments Information Act Is Progressing

                efficient, and economical operation of Federal
                [Government] programs.”
                We did identify two areas in which the IRS was not in
                compliance with the Treasury implementation plan or could
                have improved the process.
                The IRS did not evaluate the risk of making improper
                payments for the Unapplied Collections Program
                The Associate CFO for Revenue Financial Management
                believed the Unapplied Collections Program was not
                covered under the IPIA because the $57 million in Program
                funding was not derived from Federal Government funds.
                The Associate CFO stated that, since the Program was just a
                clearing account for deposits from seizure proceeds, it
                should not be part of the IPIA. In addition, the Associate
                CFO stated and we confirmed that Treasury personnel
                verbally agreed with the IRS’ reasoning for not performing
                the Unapplied Collections Program risk assessment.
                However, since funds in the clearing account are transferred
                to taxpayers’ accounts to offset outstanding tax liabilities
                and the remaining balances are refunded to taxpayers, there
                is a chance for misapplied payments. In addition, the
                Associate CFO for Revenue Financial Management had
                elected to perform a risk assessment for the $608 billion of
                revenue in the Refund Collection Program, for which the
                funding was also not derived from Federal Government
                funds.
                The Treasury included revenue account programs, including
                the Unapplied Collections Program, in the IPIA
                implementation plan it submitted to the OMB. We believe
                that, if the IRS wanted to exclude a program from the
                Treasury’s report to the Congress, it should have formally
                informed the Treasury, since the Unapplied Collections
                Program was included in the IPIA implementation plan. If
                the Treasury had concurred, the Treasury’s information
                provided to the Congress would not have included the
                affected IRS revenue programs and activities. If the
                Congress was not satisfied that the Treasury complied with
                the Act, the Congress would have so advised.
                While the decision not to perform a risk assessment for the
                Unapplied Collections Programs should have been better
                                                                      Page 6
The Internal Revenue Service’s Implementation of the
 Improper Payments Information Act Is Progressing

                documented and formalized through the Treasury, the effect
                of not performing the risk assessment was minimal. Since
                the Unapplied Collections Program had total disbursements
                of only $6,635,360, the Program would not likely have met
                the $10 million improper payment threshold requiring
                further statistical analysis, as required in the Treasury
                implementation plan.
                The IRS did not always conduct risk assessments with
                the aid of individuals working within the program,
                which could have helped identify areas of risk
                The 10 administrative program risk assessments performed
                by the Associate CFO for Internal Financial Management
                were completed with the aid of individuals working within
                each IRS functional program. However, the Associate CFO
                for Revenue Financial Management’s IPIA team conducted
                risk assessments by obtaining and analyzing data from IRS
                functional programs but did not always include IRS
                functional staff on the assessment teams. The Associate
                CFO for Revenue Financial Management did include a
                policy analyst on the team to complete the risk assessment
                on the internal controls for the Payment – Child Credit
                Exceeds Liability Program but did not do so for the Refund
                Collection and Refund Collection – Interest Programs. The
                IRS submitted the risk assessments for these two Programs
                and rated each as a low or medium risk for improper
                payments.
                Although the Treasury IPIA guidelines did not provide
                specific direction on who should perform annual risk
                assessments, it would have been prudent on the part of the
                Associate CFO for Revenue Financial Management to
                solicit the opinions of those having firsthand program
                knowledge. Officials we contacted from other agencies
                involved in implementing the IPIA believed program area
                involvement was critical to identifying potential problems
                and weaknesses that may cause improper payments and
                could make a program high risk.
                Performing future risk assessments with assistance from
                program area employees may enhance the identification of
                risks. For example, the risk assessment for the Refund
                Collection Program was conducted by staff from the CFO’s
                office and showed the Program to be a low risk. However,
                                                                     Page 7
The Internal Revenue Service’s Implementation of the
 Improper Payments Information Act Is Progressing

                the GAO, in its report on the IRS’ FY 2004 Financial
                Statements,11 stated that the “ . . . GAO continues to
                consider issues related to IRS’s [sic] controls over financial
                reporting, management of unpaid assessments, and
                collection of revenue and issuance of tax refunds to be
                material weaknesses.” The report stated this material
                weakness results in “ . . . lost revenue to the Federal
                government and potentially billions of dollars in improper
                payments . . . ” and the “IRS’s [sic] taxpayer compliance
                programs identified billions of potentially underreported
                taxes and erroneous EITC claims each year.” The report
                also stated the “ . . . IRS relies extensively on detective
                controls, such as automated matching of tax returns with
                third-party data such as W-2s [wage and tax statements], to
                identify for collection underreported taxes and improper
                refunds. However, these programs are not run until months
                after the returns have been filed and, as a result, cannot be
                used to prevent improper refunds from being disbursed.”
                The GAO also stated that “ . . . due in large part to perceived
                resource constraints, [the] IRS selects only a portion of the
                questionable cases it identifies for follow-up investigation
                and action.”
                The Associate CFO for Revenue Financial Management
                informed us that, as a result of concerns from OMB
                officials, meetings were held with the OMB to provide
                details and additional information to support the IRS’
                Revenue Collections Program risk assessment
                determination. After submitting the risk assessments to the
                Treasury, the Associate CFO for Revenue Financial
                Management requested a computer extract to identify and
                analyze refund accounts to help confirm that improper
                payments would not exceed 2.5 percent of total
                disbursements even if it was determined to be at high risk.
                To approximate the percentage of improper refunds, the
                computer extract identified accounts with tax assessments
                after a refund was issued. This data analysis was obtained
                to respond to OMB concerns on the basis of the
                assessments. The CFO and staff held discussions with and
                provided briefing materials to Treasury and OMB officials.


                11
                  Financial Audit: IRS’s Fiscal Years 2004 and 2003 Financial
                Statements (GAO-05-103, dated November 2004).
                                                                                Page 8
The Internal Revenue Service’s Implementation of the
 Improper Payments Information Act Is Progressing

                The Associate CFO for Revenue Financial Management
                informed us he believed the office staff’s background was
                sufficient to conduct the risk assessments. However, we
                believe the Associate CFO for Revenue Financial
                Management and staff would benefit by involving IRS
                operating functions in the risk assessment process.

                Recommendations

                For future annual IPIA assessments, we recommend the
                CFO:
                1. Submit a request to the Treasury to obtain a formal
                   exemption for not conducting any risk assessment
                   identified in the Treasury IPIA implementation plan.
                 Management’s Response: IRS management believes they
                 took the appropriate steps to notify the Treasury CFO’s
                 office that they would not be performing the Unapplied
                 Collections Program risk assessment and concurred with
                 this recommendation only in the event they have to
                 remove any future risk assessments from the Treasury list.
                 Office of Audit Comment: Although IRS management
                 agreed to obtain formal written exemptions in the future
                 when risk assessments listed in the Treasury IPIA
                 implementation plan are not conducted, they disagreed
                 that they should have obtained a formal exception this
                 year for not conducting the risk assessment for the
                 Unapplied Collection Program. Formally notifying the
                 Treasury would have ensured the Treasury’s information
                 provided to the Congress would have included the affected
                 IRS revenue programs and activities. Not doing so could
                 expose the IRS to criticism and cause unnecessary concern
                 over its IPIA implementation methods.
                2. Include IRS operating function employees on the
                   assessment teams when conducting future annual risk
                   assessments.
                Management’s Response: IRS management partially
                concurred with this recommendation. They pointed out they
                involved the functional employees in conversations
                regarding the risk assessments and obtained their agreement
                to assist during the FY 2005 risk assessments.
                                                                     Page 9
                   The Internal Revenue Service’s Implementation of the
                    Improper Payments Information Act Is Progressing

                                   Office of Audit Comment: The Associate CFO for Revenue
                                   Financial Management agreed to have IRS functional staff
                                   assist on some future risk assessments by obtaining and
                                   analyzing data but did not agree to have IRS functional staff
                                   assigned to the assessment teams. We believe assigning
                                   IRS functional staff to future risk assessments may enhance
                                   the identification of risks. This would allow the risk
                                   assessment teams to solicit the opinions of those having
                                   firsthand program knowledge. Officials we contacted from
                                   other agencies believed program area involvement was
                                   critical to identifying potential problems and weaknesses
                                   that may cause improper payments and could make a
                                   program high risk.
                                   The only program the IRS deemed to be at high risk for
The Earned Income Tax Credit
                                   improper payments was the EITC Program, which was
Program Is Attempting to
                                   previously covered under OMB Circular A-11.
Comply With the Office of
Management and Budget’s            The initial OMB guidelines instructed agencies that, once a
Guidelines for Estimating          program was identified as being at high risk, the agency
Improper Payment Amounts           should statistically estimate the annual amount of improper
                                   payments and report the estimates to the President and the
                                   Congress with an action plan to reduce improper payments.
                                   The OMB later determined that, for a small number of large
                                   and complex high-risk programs like the EITC Program, an
                                   annual statistical sample may not be achievable given
                                   program realities and resource constraints. Therefore, in
                                   September 2004, the OMB issued alternative guidelines for
                                   estimating improper payment amounts.12
                                   The Director, EITC, in conjunction with the Director,
                                   Research, created a plan to comply with the alternative
                                   OMB guidelines for estimating improper payment amounts
                                   and is seeking OMB approval. The plan includes
                                   methodologies for estimating error rates for FY 2004
                                   by using 1999 baseline error rates resulting from a
                                   2001 EITC compliance study. In addition, the plan
                                   proposed periodic future EITC compliance studies. These
                                   periodic studies will be supplemented with interim studies

                                   12
                                    Alternative for Estimating Improper Payment Amounts, CFO Council
                                   Working Group on Improper Payments



                                                                                            Page 10
The Internal Revenue Service’s Implementation of the
 Improper Payments Information Act Is Progressing

                that measure selected, high-risk components of the EITC
                Program. Working with the OMB, the EITC Program will
                follow these alternative initiatives to comply with the IPIA.




                                                                      Page 11
                         The Internal Revenue Service’s Implementation of the
                          Improper Payments Information Act Is Progressing

                                                                                        Appendix I


                            Detailed Objective, Scope, and Methodology

The overall objective of this audit was to evaluate the process the Internal Revenue Service (IRS)
established to complete the Department of the Treasury’s (the Treasury) implementation plan to
comply with the Improper Payments Information Act of 2002 (IPIA).1 To accomplish our
objective, we:
I.         Evaluated the IRS’ implementation of a controlled process to evaluate its programs for
           improper payments.
           A. Interviewed IRS executives to identify the process the IRS used to assign IPIA
              responsibilities.
           B. Obtained the risk assessment documents and compared them to the required payment
              types under the Treasury Fund Symbols identified in the Treasury’s Inventory of
              Programs to determine whether the required risk assessments were conducted.
           C. Interviewed managers to identify individuals assigned to complete the risk
              assessments and determined whether the individuals had the knowledge and
              qualifying experience to make the risk assessments.
           D. Reviewed program types for which risk assessments and statistical sampling were not
              conducted to determine whether they were susceptible to significant erroneous
              payments.
II.        Identified legal and procedural requirements and guidelines that applied to the IPIA.
           A. Kept informed of the Treasury IPIA working group meetings for changes in the
              Treasury IPIA plan and Office of Management and Budget (OMB) guidance.
           B. Conducted research to obtain outside stakeholders’ current perspective on
              implementation of the IPIA (e.g., committee hearings, Congressional concerns).
           C. Interviewed Treasury IPIA contacts to identify the reporting requirements for the IRS.
III.       Determined the cause of any problems or issues identified.
           A. Interviewed OMB officials to identify agencies recognized as having best practices in
              implementing the IPIA and met with the executives/managers responsible for
              implementing the IPIA in those agencies to learn about best practices that may aid the
              IRS in its implementation efforts.


1
    Pub. L. No. 107-300, 116 Stat. 2350 (2002).


                                                                                               Page 12
                  The Internal Revenue Service’s Implementation of the
                   Improper Payments Information Act Is Progressing

      B. Determined the reason the required risk assessment was not completed through
         interviews with responsible management.
IV.   Determined the effect of any issues identified on the IRS and stakeholders by analyzing
      the data the IRS provided to the Treasury and determining whether the data fulfilled the
      annual reporting requirements.




                                                                                        Page 13
                   The Internal Revenue Service’s Implementation of the
                    Improper Payments Information Act Is Progressing

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
James O’Hara, Audit Manager
Kenneth L. Carlson, Jr., Lead Auditor
Julia Tai, Senior Auditor
David Lowe, Auditor
Stephanie McFadden, Auditor




                                                                                         Page 14
                 The Internal Revenue Service’s Implementation of the
                  Improper Payments Information Act Is Progressing

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Wage and Investment Division SE:W
Associate Chief Financial Officer for Internal Financial Management OS:CFO:I
Associate Chief Financial Officer for Revenue Financial Management OS:CFO:R
Director, Earned Income Tax Credit, Wage and Investment Division SE:W:EITC
Director, Health Coverage Tax Credit Program, Wage and Investment Division SE:W:HCTC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Financial Officer OS:CFO
       Senior Operations Advisor, Wage and Investment Division SE:W:S:W




                                                                                Page 15
                          The Internal Revenue Service’s Implementation of the
                           Improper Payments Information Act Is Progressing

                                                                                                Appendix IV


                         Internal Revenue Service Inventory of Programs
                        Meeting Office of Management and Budget Criteria

Under the Department of the Treasury (the Treasury) Improper Payments Information Act of
20021 implementation plan, the Internal Revenue Service (IRS) was required to conduct annual
risk assessments of programs, not already identified as high risk under Office of Management
and Budget (OMB) guidance entitled, Preparation, Submission, and Execution of the Budget
(Circular A-11), and having program funding greater than or equal to $10 million. The Treasury
identified 16 programs that, according to its financial accounting records, accounted for more
than $680 billion in total funding and more than $283 billion in total disbursements.2
              Figure 1: Total Funding and Disbursements for IRS Programs Meeting OMB Criteria


     Program Name                                       Total Funding              Total Disbursements
     Business Systems Modernization                     $         715,305,805.69 $           305,468,419.27
     Earned Income Tax Credit Compliance*               $         180,534,331.38 $           113,896,552.72
     Federal Tax Lien Revolving Fund                    $           11,536,205.13 $            5,749,784.14
     Health Insurance Tax Credit Administration         $           69,545,000.00 $            9,851,792.87
     Headquarters Disbursement Earned Income Credit*    $      34,606,000,000.00 $        31,660,692,339.72
     Information Systems (20#/#0919)                    $       2,077,800,462.93 $         1,340,349,683.59
     Information Systems (20X0919)                      $           12,586,591.97 $            6,827,305.40
     Payment - Child Credit Exceeds Liability           $      22,770,000,000.00 $         6,290,630,118.96
     Process Assistance and Management (20#0912)        $       4,560,163,269.54 $         3,249,396,634.57
     Process Assistance and Management (20#/#0912)      $           11,330,526.62 $            7,558,077.75
     Process Assistance and Management (20X0912)        $           29,722,481.62 $            7,485,835.62
     Refund Collection                                  $     608,273,809,100.39 $       235,025,605,209.01
     Refund Collection - Interest                       $       3,219,000,000.00 $         2,525,358,556.93
     Tax Law Enforcement                                $       4,008,770,014.49 $         3,015,871,209.92
     Unapplied Collections - IRS**                      $           56,903,769.03 $            6,635,360.39
     Undistributed Inter-Agency Receipt                 $          (17,684,231.40) $          57,936,258.97
                    Totals for 13 with Risk Assessments $     645,741,885,226.98 $       251,848,088,887.00
                                           Grand Totals $     680,585,323,327.39 $       283,629,313,139.83
     * No Risk Assessment Required
     ** The IRS Did Not Perform Risk Assessment
Source: Department of the Treasury Inventory of Programs (Erroneous Payments).



1
    Pub. L. No. 107-300, 116 Stat. 2350 (2002).
2
    We did not perform any validation testing of the Treasury’s financial accounting records.



                                                                                                      Page 16
The Internal Revenue Service’s Implementation of the
 Improper Payments Information Act Is Progressing

                                                       Appendix V


  Management’s Response to the Draft Report




                                                           Page 17
The Internal Revenue Service’s Implementation of the
 Improper Payments Information Act Is Progressing




                                                       Page 18
The Internal Revenue Service’s Implementation of the
 Improper Payments Information Act Is Progressing




                                                       Page 19
The Internal Revenue Service’s Implementation of the
 Improper Payments Information Act Is Progressing




                                                       Page 20
